TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                 Fiscal Year 2013 Review of Compliance With
                 Legal Guidelines When Conducting Seizures
                            of Taxpayers’ Property



                                           June 12, 2013

                              Reference Number: 2013-30-061




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.

 Redaction Legend:
 1 = Tax Return/Return Information



 Phone Number | 202-622-6500
 E-mail Address | TIGTACommunications@tigta.treas.gov
 Website        | http://www.treasury.gov/tigta
                                                    HIGHLIGHTS


FISCAL YEAR 2013 REVIEW OF                                The amount of the liability for which the
COMPLIANCE WITH LEGAL GUIDELINES                           seizure was made was not correct on the
WHEN CONDUCTING SEIZURES OF                                notice of seizure provided to the taxpayer.
TAXPAYERS’ PROPERTY                                        (I.R.C. § 6335(a))
                                                          Proceeds resulting from the seizure of

Highlights                                                 properties were not properly applied to the
                                                           taxpayer’s account or seizure and sale
                                                           expenses were not properly charged.
Final Report issued on June 12, 2013                       (I.R.C. §§ 6341 and 6342(a))

Highlights of Reference Number: 2013-30-061               The balance-due letter sent to the taxpayer
to the Internal Revenue Service Commissioner               after sale proceeds were applied to the
for the Small Business/Self-Employed Division.             taxpayer’s account did not show the correct
                                                           remaining balance. (I.R.C. § 6340(c))
IMPACT ON TAXPAYERS
                                                       WHAT TIGTA RECOMMENDED
Taking a taxpayer’s property for unpaid tax is
commonly referred to as a “seizure.” To ensure         TIGTA made no recommendations in this report.
that taxpayers’ rights are protected in this           IRS officials were provided an opportunity to
process, the IRS Restructuring and Reform Act          review the draft report and did not provide
of 1998 amended the seizure provisions in              comments.
Internal Revenue Code (I.R.C.) Sections (§§)
6330 through 6344. The IRS did not always
comply with certain statutory requirements.
Noncompliance with these I.R.C. requirements
could result in abuses of taxpayers’ rights.
WHY TIGTA DID THE AUDIT
TIGTA is required under I.R.C.
§ 7803(d)(1)(A)(iv) to annually evaluate the
IRS’s compliance with the legal seizure
provisions to ensure that taxpayers’ rights were
not violated while seizures were being
conducted.
WHAT TIGTA FOUND
TIGTA reviewed a random sample of 50 of the
738 seizures conducted from July 1, 2011,
through June 30, 2012, to determine whether
the IRS is complying with legal and internal
guidelines when conducting each seizure.
In the majority of seizures, the IRS followed all
guidelines. However, in 15 seizures, TIGTA
identified 17 instances in which the IRS did not
comply with a particular I.R.C. requirement.
Specifically, TIGTA found:
   The sale of the seized property was not
    properly advertised. (I.R.C. § 6335(b))
                                                    DEPARTMENT OF THE TREASURY
                                                           WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                                     June 12, 2013


 MEMORANDUM FOR COMMISSIONER, SMALL BUSINESS/SELF-EMPLOYED
                DIVISION


 FROM:                            Michael E. McKenney
                                  Acting Deputy Inspector General for Audit

 SUBJECT:                         Final Audit Report – Fiscal Year 2013 Review of Compliance With
                                  Legal Guidelines When Conducting Seizures of Taxpayers’ Property
                                  (Audit # 201330002)

 This report presents the results of our review to determine whether seizures1 conducted by the
 Internal Revenue Service (IRS) complied with legal provisions set forth in Internal Revenue
 Code (I.R.C.) Sections (§§) 6330 through 6344 and with the IRS’s own internal procedures. The
 Treasury Inspector General for Tax Administration (TIGTA) is required under
 I.R.C. § 7803(d)(1)(A)(iv) to annually evaluate the IRS’s compliance with the legal seizure
 provisions to ensure that taxpayers’ rights were not violated while seizures were being
 conducted. We have evaluated the IRS’s compliance with the seizure provisions since Fiscal
 Year 1999. The audit is included in our Fiscal Year 2013 Annual Audit Plan and addresses the
 major management challenge of Taxpayer Protection and Rights.
 Although TIGTA made no recommendations in this report, IRS officials were provided an
 opportunity to review the draft report. IRS management did not provide any report comments.
 Copies of this report are also being sent to the IRS managers affected by this report. If you have
 any questions, please contact me or Augusta R. Cook, Acting Assistant Inspector General for
 Audit (Compliance and Enforcement Operations).




 1
     Taking a taxpayer’s property for unpaid tax is commonly referred to as a seizure.
                       Fiscal Year 2013 Review of Compliance With Legal Guidelines
                             When Conducting Seizures of Taxpayers’ Property




                                            Table of Contents

Background .......................................................................................................... Page 1

Results of Review ............................................................................................... Page 3
          Legal Provisions and Internal Procedures Were Not
          Always Adhered to When Conducting Seizures ........................................... Page 3

Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................ Page 7
          Appendix II – Major Contributors to This Report ........................................ Page 8
          Appendix III – Report Distribution List ....................................................... Page 9
          Appendix IV – Outcome Measure ................................................................ Page 10
          Appendix V – Synopsis of Selected Legal Provisions for
          Conducting Seizures ..................................................................................... Page 11
          Appendix VI – Prior Treasury Inspector General for Tax
          Administration Reports on Compliance With Seizure Procedures ............... Page 14
         Fiscal Year 2013 Review of Compliance With Legal Guidelines
               When Conducting Seizures of Taxpayers’ Property




                        Abbreviations

I.R.C.            Internal Revenue Code
IRM               Internal Revenue Manual
IRS               Internal Revenue Service
TIGTA             Treasury Inspector General for Tax Administration
                    Fiscal Year 2013 Review of Compliance With Legal Guidelines
                          When Conducting Seizures of Taxpayers’ Property




                                            Background

The collection of unpaid tax by the Internal Revenue Service (IRS) generally begins with letters
to the taxpayer followed by telephone calls and personal contacts by an IRS employee. The
employees who make personal contacts are referred to as revenue officers. They consider the
taxpayer’s ability to pay the tax and discuss alternatives, such as an installment agreement or an
offer in compromise.1 If these actions have been taken and the taxpayer has not fully paid the tax
due, the revenue officer has the authority to take the taxpayer’s funds or property for the
payment of tax. Taking a taxpayer’s property for unpaid tax is commonly referred to as a
“seizure.”
To ensure that taxpayer rights are protected, the IRS Restructuring and Reform Act of 19982
amended the seizure provisions in Internal Revenue Code (I.R.C.) Sections (§§) 6330 through
6344. These provisions and the IRS’s internal procedures are very specific regarding how a
seizure should be performed. See Appendix V for a synopsis of the applicable legal provisions.
The Treasury Inspector General for Tax Administration (TIGTA) is required under
I.R.C. § 7803(d)(1)(A)(iv) to annually evaluate the IRS’s compliance with these legal seizure
provisions. We have evaluated the IRS’s compliance with the seizure provisions since Fiscal
Year3 1999. See Appendix VI for a list of all prior audit reports issued on the IRS’s compliance
with seizure procedures.
Following passage of the IRS Restructuring and Reform Act of 1998, IRS seizures decreased
from 10,090 in Fiscal Year 1997 to 74 in Fiscal Year 2000. The number of seizures has
increased since Fiscal Year 2000; however, seizures in Fiscal Year 2012 were still only 7 percent
of those reported for Fiscal Year 1997. It is unlikely that they will ever return to pre-1998 levels.
Figure 1 illustrates the number of seizures made over the past five fiscal years.




1
  An offer in compromise is a proposal by a taxpayer to settle an unpaid account(s) for less than the full amount of
the balance due.
2
  Pub. L. No. 105-206, 112 Stat. 685 (codified as amended in scattered sections of 2 U.S.C., 5 U.S.C. app.,
16 U.S.C., 19 U.S.C., 22 U.S.C., 23 U.S.C., 26 U.S.C., 31 U.S.C., 38 U.S.C., and 49 U.S.C.).
3
  A 12-consecutive-month period ending on the last day of any month. The Federal Government’s fiscal year begins
on October 1 and ends on September 30.
                                                                                                            Page 1
                       Fiscal Year 2013 Review of Compliance With Legal Guidelines
                             When Conducting Seizures of Taxpayers’ Property



                                  Figure 1: IRS Seizures by Fiscal Year




               Source: IRS Data Books.4

This review was performed at the Small Business/Self-Employed Division Headquarters in
New Carrollton, Maryland, during the period October 2012 through March 2013. The audit
focused on determining whether the IRS conducted seizures in compliance with legal and
internal procedures. We conducted this performance audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and perform the audit to
obtain sufficient, appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our audit objective. We believe that the evidence obtained provides a
reasonable basis for our findings and conclusions based on our audit objective. Detailed
information on our audit objective, scope, and methodology is presented in Appendix I. Major
contributors to the report are listed in Appendix II.




4
    The IRS Data Book is a report that describes activities conducted by the IRS during the fiscal year.
                                                                                                           Page 2
                    Fiscal Year 2013 Review of Compliance With Legal Guidelines
                          When Conducting Seizures of Taxpayers’ Property




                                       Results of Review

Legal Provisions and Internal Procedures Were Not Always Adhered
to When Conducting Seizures
A review of a random sample of 50 seizures from the 738 seizures the IRS conducted from
July 1, 2011, through June 30, 2012, showed that in the majority of seizures reviewed, the IRS
followed legal and internal guidelines applicable to the respective case.5 However, in
15 seizures, we identified 17 instances in which the IRS did not comply with a particular
I.R.C. requirement.6 Not following the legal and internal guidelines could result in the abuse of
taxpayers’ rights. Specifically, we identified:
        Eight instances in which the sale of the seized property was not properly advertised.
         (I.R.C. § 6335(b))
        Four instances in which the amount of the liability for which the seizure was made was
         not correct on the notice of seizure provided to the taxpayer. (I.R.C. § 6335(a))
     **1** instances in which proceeds resulting from the seizure were not properly applied to
        the taxpayer’s account **1** seizure and sale expenses were not properly charged.
        (I.R.C. § 6341 and § 6342(a))
     ******************************************1************************
        **************************************1****************************
        *******1**********
IRS management agreed to take corrective action after TIGTA presented its findings.

Sales of seized properties were not always properly advertised
I.R.C. § 6335(b) requires the IRS, as soon as practicable after the seizure of property, to give
notice of the sale in writing to the owner and to publish the notice in a newspaper distributed
within the county where the seizure was made. If there is no newspaper published or generally
circulated in the county, the IRS must post the notice at the post office closest to the place of the



5
  Our review included a total of 58 guidelines for each seizure. The guidelines applicable for each seizure vary due
to the timing between the date of the seizure and the date of our review. For example, at the time of our review, the
sale for the seized property may not have been advertised, the sale may have been advertised but had not yet
occurred, the property may have been redeemed or released prior to sale, or the property may have been sold.
6
  Two seizures had two occurrences in which the IRS did not comply with a particular I.R.C. requirement.
                                                                                                              Page 3
                     Fiscal Year 2013 Review of Compliance With Legal Guidelines
                           When Conducting Seizures of Taxpayers’ Property



seizure and at least two other public places. The notice must specify the property to be sold and
the time, place, manner, and conditions of the sale.
The Internal Revenue Manual (IRM) requires that the notice of sale contain the description of the
property; the date, time, and place of sale; the payment terms; and information on the grouping
of property.7 However, neither the IRM section nor the corresponding exhibit, Template to
Provide Publisher to Meet Statutory Requirements of Advertising,8 states that the newspaper
advertisement must contain the same information as provided on Form 2434, Notice of Public
Auction Sale, or when applicable on Form 2434–A, Notice of Sealed Bid Sale.
We identified eight seizures in which the newspaper advertisements for the sale of the respective
seized properties did not include the same information as in the notice given to the taxpayer.
Based on a prior TIGTA recommendation,9 the IRS plans to revise the IRM to require that the
advertisement contain the same information as the notice of sale; however, the seizures in this
review were conducted prior to implementation of this change, so we are not making any new
recommendations.

Taxpayers were not always provided a notice of seizure with the correct liability
balance for which the seizure was made
I.R.C. § 6335(a) requires the IRS, as soon as practicable after the seizure of property, to provide
the owner of the property with a notice in writing that specifies the liability for which the seizure
was made and an accounting of the property seized.
The IRM10 provides guidance on completing Form 2433, Notice of Seizure.11 It requires that the
liability shown on Form 2433 agrees with the taxpayer’s total amount due for the tax modules12
listed on the Form 668-B, Levy.13 This amount should include all accruals and match the Total
Amount Due on Form 668-B. If there is a difference in amount, it should be documented in the
Integrated Collection System14 history. The items of property seized should be described and
identified with reasonable certainty in an inventory listed on the Form 2433 or in an attachment
to the Form 2433. We identified four seizures in which the respective Forms 2433 provided to

7
  IRM 5.10.4.12 (4) (Jul. 3, 2009).
8
  IRM Exhibit 5.10.4-6 (Jul. 3, 2009).
9
  TIGTA, Ref. No 2012-30-072, Fiscal Year 2012 Review of Compliance With Legal Guidelines When Conducting
Seizures of Taxpayers’ Property p. 6 (Jun. 2012).
10
   IRM Exhibit 5.10.3-4 (Jan. 22, 2008).
11
   Form 2433 is the taxpayer’s receipt for the seized property. The document specifies the sum demanded: for
personal property, a list of the property seized; and for real property, a description of the property seized.
12
   Tax module refers to each tax return filed by the taxpayer for a specific period (year and quarter) during a
calendar year for each type of tax.
13
   A levy is a means to take property by legal authority to satisfy a tax debt. The IRS uses a levy as a tool to collect
on balance-due accounts that are not being paid voluntarily.
14
   The Integrated Collection System is an automated system used to control and monitor delinquent cases assigned to
revenue officers in the field offices.
                                                                                                               Page 4
                    Fiscal Year 2013 Review of Compliance With Legal Guidelines
                          When Conducting Seizures of Taxpayers’ Property



the taxpayer did not show the correct liability for which the seizure was made. Because the
number of errors was small and they did not appear to be systemic in nature, we are not making
any recommendations for this issue.

Expenses and proceeds resulting from seizures were not always properly applied
to taxpayers’ accounts
I.R.C. § 6341 states that the IRS shall determine the expenses to be allowed in all cases of levy
and sale. The IRM15 requires that all expenses of seizure and sale that are not paid directly by the
taxpayer be charged to the taxpayer’s account with a Transaction Code16 360, Fees and
Collection Costs. The IRM also states that it is essential that all expenses of the seizure and sale
be charged against the taxpayer’s account so that the expenses are satisfied from the proceeds of
the seizure or sale.
I.R.C. § 6342(a) and the IRM require that any money realized by seizure or by sale of seized
property be applied in the following order:
     1) Against the expenses of the proceedings.
     2) Against any unpaid tax imposed by any Internal Revenue law against the property seized
        and sold, e.g., an excise tax.
     3) Against the liability with respect to which the levy was made or the sale was conducted
        (the accounts appearing on Form 668-B).
Because the I.R.C. requires that funds realized under seizure and sale proceedings be applied
first to the expenses of the levy and sale, the IRM17 requires that the proceeds be credited to the
taxpayer’s account using a Transaction Code 694, Designated Payment of Fees and Collection
Costs, for the amount of the expenses. *************************1*******************
*************************************1**************************************
**************************************1*************************************
********************************************************1****************
*************************************1**************************************
***************1************************. Because the number of errors was small and
they did not appear to be systemic in nature, we are not making any recommendations for this
issue.




15
   IRM 5.10.6.2(1) (Jul. 3, 2009).
16
   Transaction codes are used to identify transactions being processed on the IRS’s computer systems and to
maintain a history of the actions posted to a taxpayer’s account.
17
   IRM 5.10.6.2(2) (Jul. 3, 2009).
                                                                                                              Page 5
                    Fiscal Year 2013 Review of Compliance With Legal Guidelines
                          When Conducting Seizures of Taxpayers’ Property



Balance-due letters sent to the taxpayers did not always show the correct
remaining balance
I.R.C. § 6340(a) requires that the IRS keep a record of all sales of property. The record should
include the tax for which any such sale was made, the dates of the seizure and sale, the name of
the party assessed, all proceedings in making the sale, the amount of expenses, the names of the
purchasers, and the date of the deed or certificate of sale of personal property. I.R.C. § 6340(c)
requires that the taxpayer be furnished the record of sale under subsection (a) (other than the
names of the purchasers), the amount from such sale applied to the taxpayer’s liability, and the
remaining balance of such liability.
The IRM18 lists three documents to be retained in the permanent record and to be provided to the
taxpayer. Those documents are: Record 21, Record of Seizure and Sale;19 Form 2434-B, Notice
of Encumbrances Against or Interests in Property Offered for Sale; and Letter 3074, Transmittal
Letter Providing Balance Remaining on the Account after Application of Proceeds. **1**
******************************************1**********************************
**1***. Because the number of errors is small and they do not appear to be systemic in nature,
we are not making any recommendations for this issue.




18
  IRM 5.10.6.12 (2) (Jul. 3, 2009).
19
  Record 21 is a three-part form that documents various aspects of the seizure and sale process. It includes
information such as the assessments under which the seizure was made, description of the property seized,
information regarding the advertisement of the sale, the proceeds and expenses of the seizure and sale, and the date
on which the certificate of sale was issued and to whom.
                                                                                                             Page 6
                    Fiscal Year 2013 Review of Compliance With Legal Guidelines
                          When Conducting Seizures of Taxpayers’ Property



                                                                                                   Appendix I

          Detailed Objective, Scope, and Methodology

The overall objective of this review was to determine whether seizures1 conducted by the IRS
complied with legal provisions set forth in I.R.C. Sections (§§) 6330 through 6344 and with the
IRS’s own internal procedures.2 To accomplish our objective, we:
I.       Obtained documentation of national guidelines provided to employees; identified IRS
         systems, policies, and practices for ensuring compliance with legal provisions and
         internal procedures related to seizures; and determined how these tools were used.
II.      Selected and reviewed a random sample of 50 of the 738 seizures conducted by the IRS
         from July 1, 2011, through June 30, 2012. We reviewed the sample of seizures to
         determine whether the IRS complied with legal provisions and internal procedures. We
         used a random sample to ensure that each of the 738 seizures had an equal chance of
         being selected.
Internal controls methodology
Internal controls relate to management’s plans, methods, and procedures used to meet their
mission, goals, and objectives. Internal controls include the processes and procedures for
planning, organizing, directing, and controlling program operations. They include the systems
for measuring, reporting, and monitoring program performance. We determined the following
internal controls were relevant to our audit objective: the Small Business/Self-Employed
Division Collection function’s policies, procedures, and practices for conducting seizures of
taxpayers’ property under the provisions of I.R.C. §§ 6330 through 6344. We did not assess
internal controls because doing so was not applicable within the context of our audit objective to
determine whether the IRS complied with these legal provisions.




1
 Taking a taxpayer’s property for unpaid tax is commonly referred to as a seizure.
2
 This audit was not intended to determine whether the decision to seize was appropriate or to identify the cause of
any violations.
                                                                                                             Page 7
                Fiscal Year 2013 Review of Compliance With Legal Guidelines
                      When Conducting Seizures of Taxpayers’ Property



                                                                            Appendix II

                Major Contributors to This Report

Carl L. Aley, Acting Assistant Inspector General for Audit (Compliance and Enforcement
Operations)
Augusta R. Cook, Acting Assistant Inspector General for Audit (Compliance and Enforcement
Operations)
Frank Dunleavy, Acting Assistant Inspector General for Audit (Compliance and Enforcement
Operations)
Timothy F. Greiner, Acting Director
Glen J. Rhoades, Audit Manager
Janis Zuika, Lead Auditor
Bridgid E. Shannon, Auditor




                                                                                     Page 8
                Fiscal Year 2013 Review of Compliance With Legal Guidelines
                      When Conducting Seizures of Taxpayers’ Property



                                                                           Appendix III

                         Report Distribution List

Principal Deputy Commissioner
Office of the Commissioner – Attn: Chief of Staff C
The Office of Deputy Commissioner for Services and Enforcement SE
Deputy Commissioner, Small Business/Self-Employed Division SE:S
Director, Field Collection, Small Business/Self-Employed Division SE:S:C
Director, Collection Policy, Small Business/Self-Employed Division SE:S:C:CP
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaison: Commissioner, Small Business/Self-Employed Division SE:S




                                                                                  Page 9
                    Fiscal Year 2013 Review of Compliance With Legal Guidelines
                          When Conducting Seizures of Taxpayers’ Property



                                                                                                Appendix IV

                                      Outcome Measure

This appendix presents detailed information on the measurable impact that our review will have
on tax administration. This benefit will be incorporated into our Semiannual Report to Congress.

Type and Value of Outcome Measure:
   Taxpayer Rights and Entitlements – Actual; 14 taxpayers1 for whom the IRS did not comply
    with legal provisions and internal procedures when conducting seizures2 (see page 3).

Methodology Used to Measure the Reported Benefit:
We selected and reviewed a random sample of 50 of the 738 seizures conducted from
July 1, 2011, through June 30, 2012. Not adhering to legal and internal guidelines could result in
the abuse of taxpayers’ rights.




1
  We identified 15 seizures in which the IRS did not follow all legal and internal guidelines. In one of these
seizures, the violations only involved administrative or accounting guidelines that would not reasonably be expected
to result in abuses of taxpayer rights.
2
  Taking a taxpayer’s property for unpaid tax is commonly referred to as a seizure.
                                                                                                           Page 10
                     Fiscal Year 2013 Review of Compliance With Legal Guidelines
                           When Conducting Seizures of Taxpayers’ Property



                                                                                                     Appendix V

             Synopsis of Selected Legal Provisions for
                       Conducting Seizures

I.R.C. Section (§) 6330 requires that the IRS issue the taxpayer a notice of his or her right to a
hearing prior to seizure1 action. The notice must be 1) given in person, 2) left at the taxpayer’s
home or business, or 3) mailed as certified-return receipt requested no fewer than 30 calendar
days before the day of the seizure. The notice must explain in simple terms 1) the amount owed,
2) the right to request a hearing during the 30-calendar-day period, and 3) the proposed action by
the IRS and the taxpayer’s rights with respect to such action.
The statute of limitations for collection is suspended from the time a taxpayer requests a hearing
and while such hearings and appeals are pending, except when the underlying tax liability is not
at issue in the appeal and the court determines that the IRS has shown good cause not to suspend
the seizure. No limitation period may expire before 90 calendar days after a final determination.
These procedures do not apply if the collection of tax is at risk.
I.R.C. § 6331 authorizes the IRS to seize a taxpayer’s property for unpaid tax after sending the
taxpayer a 30-calendar-day notice of intent to levy.2 This section also prohibits seizure 1) during
a pending suit for the refund of any payment of a divisible tax, 2) before a thorough investigation
of the status of any property subject to seizure, or 3) while either an offer in compromise3 or an
installment agreement is being evaluated and, if necessary, for 30 additional calendar days
during which the taxpayer may appeal the rejection of the offer in compromise or installment
agreement.
I.R.C. § 6332 requires that a third party in possession of property subject to seizure surrender
such property when a levy notice is received. It contains sanctions against third parties who do
not surrender such property when a levy notice is received.
I.R.C. § 6333 requires that a third party with control of books or records containing evidence or
statements relating to property subject to seizure exhibit such books or records to the IRS when a
levy notice is received.




1
  Taking a taxpayer’s property for unpaid tax is commonly referred to as a seizure.
2
  A levy is a means to take property by legal authority to satisfy a tax debt. The IRS uses a levy as a tool to collect
on balance-due accounts that are not being voluntarily paid.
3
  An offer in compromise is a proposal by a taxpayer to settle an unpaid account(s) for less than the full amount of
the balance due.
                                                                                                               Page 11
                    Fiscal Year 2013 Review of Compliance With Legal Guidelines
                          When Conducting Seizures of Taxpayers’ Property



I.R.C. § 6334 enumerates property exempt from seizure. The exemption amounts are adjusted
each year and included $8,370 for the period July 1 through December 31, 2011, and $8,570 for
the period January 1 through June 30, 2012, for fuel, provisions, furniture, and personal effects;
and $4,180 for the period July 1 through December 31, 2011, and $4,290 for the period
January 1 through June 30, 2012, for books and tools necessary for business purposes. Also, any
primary residence, not just the taxpayer’s, is exempt from seizure when the amount owed is
$5,000 or less. Seizure of the taxpayer’s principal residence is allowed only with the approval of
a U.S. District Court judge or magistrate. Property used in an individual taxpayer’s business is
exempt except with written approval of the Area Office4 Director, and the seizure may be
approved only if other assets are not sufficient to pay the liability.
I.R.C. § 6335 contains procedures for the sale of seized property. Notice must be given to the
taxpayer; the property must be advertised in the county newspaper or posted at the nearest
U.S. Postal Service office; and such notices shall specify the time, place, manner, and conditions
of sale. This section requires that the property be sold no fewer than 10 calendar days or no
more than 40 calendar days from the time of giving public notice. Finally, this section expressly
prohibits selling seized property for less than the minimum bid.
I.R.C. § 6336 contains procedures for the accelerated disposition of perishable property. This is
property such as fresh food products or any property that requires prohibitive expenses to
maintain during the normal sale time period. The property may either be sold quickly or
returned to the taxpayer in exchange for payment of a bond.
I.R.C. § 6337 allows the taxpayer to redeem seized property prior to sale by paying the amount
due plus the expenses of the seizure. It also allows a taxpayer to redeem real property within
180 calendar days of the sale by paying the successful bidder the purchase price plus 20 percent
per annum interest.
I.R.C. § 6338 requires that the IRS give purchasers of seized property a certificate of sale upon
full payment of the purchase price. This includes issuing a deed to real property after expiration
of the 180-calendar-day period required by I.R.C. § 6337. The deed is exchanged for the
certificate of sale issued at the time of the sale.
I.R.C. § 6339 provides the legal effect of the certificate of sale for personal property and the
transfer deed for real property.
I.R.C. § 6340 requires that each Area Office keep a record of all sales of seized property. This
record must include the amount of tax for which such sale was made, the dates of seizure and
sale, the name of the party assessed, all proceedings in making such sale, the amount of
expenses, the names of the purchasers, and the date of the deed or certificate of sale of personal
property. The taxpayer will be furnished 1) the information above except the purchasers’ names,

4
  An Area Office is a geographic organizational level used by IRS business units and offices to help their specific
types of taxpayers understand and comply with tax laws and issues.
                                                                                                             Page 12
                    Fiscal Year 2013 Review of Compliance With Legal Guidelines
                          When Conducting Seizures of Taxpayers’ Property



2) the amount of such sale applied to the taxpayer’s liability, and 3) the remaining balance of
such liability.
I.R.C. § 6341 allows expenses for all seizure and sale cases.
I.R.C. § 6342 enumerates how the proceeds of a seizure and sale are to be applied to a
taxpayer’s account. Proceeds are applied first to the expenses of the seizure and sale
proceedings. Any remainder is then applied to the taxpayer’s liability.
I.R.C. § 6343 outlines various conditions under which a seizure may be released and property
returned to the taxpayer. These conditions include full payment of the liability, determination of
a wrongful seizure, financial hardship, etc. This section allows a consent agreement between the
United States and either the taxpayer or the National Taxpayer Advocate5 when the return of
seized property would be in the taxpayer’s best interest.
I.R.C. § 6344 contains cross-references for I.R.C. §§ 6330 through 6344.
Public Law Number 105-206 (IRS Restructuring and Reform Act of 1998)6 § 3443 required
the IRS to implement a uniform asset disposal mechanism by July 22, 2000, for sales of seized
property under I.R.C. § 6335. This mechanism was designed to remove revenue officers7 from
participating in the sales of seized assets.
Public Law Number 105-206 (IRS Restructuring and Reform Act of 1998) § 3421 required
the IRS to employ a supervisory review of seizures before action is taken.




5
  The Taxpayer Advocate Service is an independent organization within the IRS whose employees assist taxpayers
seeking help in resolving tax problems that have not been resolved through normal channels or who are experiencing
significant hardships.
6
  Pub. L. No. 105-206, 112 Stat. 685 (codified as amended in scattered sections of 2 U.S.C., 5 U.S.C. app.,
16 U.S.C., 19 U.S.C., 22 U.S.C., 23 U.S.C., 26 U.S.C., 31 U.S.C., 38 U.S.C., and 49 U.S.C.).
7
  The employees who make personal contacts with taxpayers about the collection of unpaid tax are referred to as
revenue officers.
                                                                                                        Page 13
                   Fiscal Year 2013 Review of Compliance With Legal Guidelines
                         When Conducting Seizures of Taxpayers’ Property



                                                                                      Appendix VI

                Prior Treasury Inspector General for Tax
                 Administration Reports on Compliance
                        With Seizure Procedures

Reference No.
(Date)            Report Title
  199910072       The Internal Revenue Service Needs to Improve Compliance With Legal and Internal
 (Sept. 1999)     Guidelines When Taking Taxpayers’ Property for Unpaid Taxes
 2000-10-114      The Internal Revenue Service Has Significantly Improved Compliance With Legal and
 (Aug. 2000)      Internal Guidelines When Seizing Taxpayers’ Property
 2001-10-061      Letter Report: The Internal Revenue Service Complied With Legal and Internal
  (May 2001)      Guidelines When Seizing Property for Payment of Tax
 2002-10-005      The Internal Revenue Service Has Taken Significant Actions, But Increased Oversight Is
 (Nov. 2001)      Needed to Fully Implement the Uniform Asset Disposal Mechanism
 2002-40-155      The Internal Revenue Service Continues to Comply With the Law When Seizing
 (Aug. 2002)      Taxpayers’ Property
 2003-40-115
                  Fiscal Year 2003 Statutory Audit of Compliance With Seizure Procedures
  (May 2003)
 2004-30-149      Legal and Internal Guidelines Were Not Always Followed When Conducting Seizures of
 (Aug. 2004)      Taxpayers’ Property
 2005-30-091      Fiscal Year 2005 Review of Compliance With Legal Guidelines When Conducting
  (Jun. 2005)     Seizures of Taxpayers’ Property
 2006-30-113      Fiscal Year 2006 Review of Compliance With Legal Guidelines When Conducting
 (Aug. 2006)      Seizures of Taxpayers’ Property
 2007-30-109      Fiscal Year 2007 Review of Compliance With Legal Guidelines When Conducting
  (Jul. 2007)     Seizures of Taxpayers’ Property
 2008-30-126      Fiscal Year 2008 Review of Compliance With Legal Guidelines When Conducting
  (Jun. 2008)     Seizures of Taxpayers’ Property
 2009-30-077      Fiscal Year 2009 Review of Compliance With Legal Guidelines When Conducting
  (May 2009)      Seizures of Taxpayers’ Property
 2010-30-049      Fiscal Year 2010 Review of Compliance With Legal Guidelines When Conducting
  (May 2010)      Seizures of Taxpayers’ Property



                                                                                                 Page 14
                 Fiscal Year 2013 Review of Compliance With Legal Guidelines
                       When Conducting Seizures of Taxpayers’ Property




Reference No.
(Date)          Report Title
 2011-30-049    Fiscal Year 2011 Review of Compliance With Legal Guidelines When Conducting
  (May 2011)    Seizures of Taxpayers’ Property
 2012-30-072    Fiscal Year 2012 Review of Compliance With Legal Guidelines When Conducting
  (Jun. 2012)   Seizures of Taxpayers’ Property
  




                                                                                          Page 15
